No. __________

In the Supreme Court of the United States
UNITED STATES OF AMERICA,
Plaintiff/Appellee,
v.
BUCK LEON HAMMERS,
Defendant/Appellant.

CERTIFICATE OF SERVICE

I, Ryan A. Ray, a member of the Bar of this Court, in accordance with
Rule 29, hereby certify that on this 28th day of February, 2020, I served a copy
of Defendant/Appellant’s Application for Extension of Time to file Petition for
Writ of Certiorari via electronic service and also served by U.S. mail, with firstclass postage prepaid, addressed to counsel for respondent as follows:
Linda A. Epperley, Esq.
Assistant United States Attorney
United States Attorney's Office
520 Denison Ave
Muskogee OK 74401
linda.epperley@usdoj.gov
/s/ Ryan A. Ray
RYAN A. RAY
COUNSEL FOR THE
DEFENDANT/APPELLANT

